Department of Homeland Security
   Ofﬁce of Inspector General

             Management of DHS’ Data Center 

              Consolidation Initiative Needs 

                      Improvement 





OIG-10-120                                  September 2010
                                                             Office a/Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                SEP 27101D

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Office of the Chief Information
Officer's data center consolidation initiative. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                   ~.flf

                                      ASSist~~~'ector   General
                                      Information Technology Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


     DHS’ Progress on Consolidating Its Data Centers ........................................................4 


     Steps Needed to Improve DHS’ Data Center Consolidation Process............................6 


     Recommendations........................................................................................................13 


     Management Comments and OIG Analysis ................................................................13 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................17 

     Appendix B:           Management Comments to the Draft Report .......................................18 

     Appendix C:           DHS FY 2010 Data Center Migration Spending Plans .......................20 

     Appendix D:           Multi-Year Data Center Migration Plan ..............................................22 

     Appendix E:           DHS Data Center Facilities..................................................................24 

     Appendix F:           Major Contributors to This Report ......................................................27 

     Appendix G:           Report Distribution ..............................................................................28 

Abbreviations
  CBP           Customs and Border Protection
  CIO           Chief Information Officer
  DC1           Enterprise Data Center in Mississippi
  DC2           Enterprise Data Center in Virginia
  DHS           Department of Homeland Security
  DOE           Department of Energy
  EPA           Environmental Protection Agency
  FAMS          Federal Air Marshal Service
  FEMA          Federal Emergency Management Agency
  FLETC         Federal Law Enforcement Training Center
  FY            Fiscal Year
  HSDN          Homeland Secure Data Network
  ICE           Immigration and Customs Enforcement
  IT            information technology
  MGMT          Management Directorate
  NPPD          National Protection and Programs Directorate
  OCFO          Office of the Chief Financial Officer
  OCIO          Office of the Chief Information Officer
  OIG           Office of the Inspector General
  OMB           Office of Management and Budget
  S&T           Science and Technology
  TSA           Transportation Security Administration
  USCG          United States Coast Guard
  USCIS         United States Citizenship and Immigration Services
  USSS          United States Secret Service
  US-VISIT      United States Visitor and Immigrant Status Indicator Technology
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   We reviewed the Department of Homeland Security’s efforts to
                   consolidate its components’ data centers. Our objective was to
                   determine the progress the department was making in meeting its
                   consolidation objectives. Generally, the department has made
                   some progress toward consolidating its data centers. For example,
                   the department has established the Data Center Consolidation
                   Division and two enterprise data centers. Additionally, the
                   department has awarded contracts for the operations of these data
                   centers and has migrated computing resources to these new
                   facilities.

                   However, the department needs to take additional steps to improve
                   the data center consolidation process. Specifically, the department
                   has not developed a complete inventory of the components’ data
                   centers and the associated systems, hardware, and software.
                   Additionally, the department should develop consolidated data
                   center floor plans to guide the consolidation process.

                   Further, the department should update its enterprise-wide data
                   center consolidation strategic plan. This plan should detail the
                   process to decommission legacy component data centers and
                   should conform to current government-wide efforts by the Office
                   of Management and Budget to consolidate data centers. The
                   department could also benefit by incorporating into its plans
                   lessons learned from other successful data center consolidation
                   efforts.

                   We are recommending that the department:

                   1.	      Perform the necessary discovery and validation efforts to
                            obtain accurate inventories of its data centers, hardware,
                            and systems.
                   2.	      Review government-wide efforts as well as industry best
                            practices for data center consolidations, and develop a more
                            comprehensive data center consolidation plan.




         Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                          Page 1
 

Background
                           The Department of Homeland Security’s (DHS) Chief Information
                           Officer (CIO) established the “One Infrastructure” vision to
                           improve information sharing via an enterprise-wide, consolidated
                           information technology (IT) infrastructure, supporting all of DHS’
                           strategic goals and business objectives: awareness, prevention,
                           protection, response, recovery, services, and organizational
                           excellence.

                           To support this mission, DHS established under the Office of the
                           Chief Information Officer (OCIO) the Information Technology
                           Services Office and the Data Center Consolidation Division.
                           These headquarters offices are responsible for the data center
                           consolidation initiative. The objective of this initiative is to
                           coordinate and oversee the provision of services and facilities to
                           collocate and consolidate the numerous disparate computing
                           facilities that currently support the DHS components. The
                           project’s strategic vision is to reduce the number of existing data
                           centers to two secure, geographically diverse locations to minimize
                           infrastructure while enhancing the department’s disaster recovery
                           posture.

                           According to the OCIO, collocation and consolidation will provide
                           a number of benefits over the disparate environments that currently
                           exist within the components’ computing facilities. For example,
                           reducing the overall computing asset footprint will result in
                           reduced system maintenance, management, and administration
                           costs, while merging existing operations and maintenance contracts
                           will further reduce overhead and administrative costs.
                           Additionally, the consolidation efforts will help to standardize IT
                           resource acquisitions, as well as streamline maintenance and
                           support contracts, allowing for less complex vendor support and
                           expediting response times in the event of an emergency. Benefits
                           derived from consolidation are expected to result in increased
                           security and cost avoidance over time.

                           DHS’ data center consolidation efforts are also a part of its efforts
                           to remediate disaster recovery deficiencies cited in our May 2005
                           report.1 We reported that DHS IT disaster recovery sites were not
                           prepared to prevent service disruptions from potentially hindering
                           DHS’ ability to perform mission-essential functions. Further, these

1
    Disaster Recovery Planning for DHS Information Systems Needs Improvement (OIG-05-22), May 2005.



                Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                 Page 2
 

                            disaster recovery deficiencies were occurring in part because DHS
                            did not have a program in place to provide an enterprise-wide
                            disaster recovery solution.

                            In response, the DHS CIO established the Infrastructure
                            Transformation Project, which included the establishment and
                            maintenance of two operational data centers with an active-active
                            processing capability. The active-active processing capability of
                            these two data centers was to ensure that each mission-critical
                            system had a complete disaster recovery capability.

                            Utilizing both enterprise data centers will:

                                •	 Provide redundancy to ensure continuity of operations for
                                   enterprise data centers in the event of a disaster;
                                •	 Support mission requirements for synchronization of
                                   backup and production environments; and
                                •	 Support data center consolidation goals by providing for
                                   component disaster recovery requirements.

                            Finally, the Office of Management and Budget (OMB) has
                            recognized the benefits of data center consolidation and has
                            established the Federal Data Center Consolidation Initiative.2 The
                            DHS CIO was appointed the co-chair of this initiative. In April
                            2010, DHS held a lessons-learned forum for other federal agencies
                            regarding data center consolidation. This government-wide
                            initiative focuses on the following tasks:

                                •	 Promote the use of Green IT by reducing the overall energy
                                   and real estate footprint of government data centers;
                                •	 Reduce the cost of data center hardware, software, and
                                   operations;
                                •	 Increase the government’s overall IT security posture; and
                                •	 Shift IT investments to more efficient computing platforms
                                   and technologies.




2
    Office of Management and Budget, Federal Data Center Consolidation Initiative, February 26, 2010.



                 Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                   Page 3
 

Results of Audit
     DHS’ Progress on Consolidating Its Data Centers
           DHS has taken a number of steps toward consolidating its components’
           data centers. For example, the department has established a headquarters
           office, the Data Center Consolidation Division, within the OCIO to
           oversee this project. DHS has also established two enterprise data centers,
           DC1 in Mississippi and DC2 in Virginia. In December 2008, DHS
           provided to the Congress a Data Center Migration Plan for this initiative.

           DHS has also migrated various computing resources, including all five
           legacy data centers, to its enterprise data centers. For example, the two
           enterprise data centers contain computing resources from the following
           components (table 1):

           Table 1. Enterprise Data Center Occupants as of July 31, 2010

                          DC1                                     DC2
             Customs and Border                       CBP
             Protection (CBP)
             DHS Headquarters                         DHS Headquarters
             Homeland Secure Data                     HSDN
             Network (HSDN)
             Federal Emergency                        FEMA
             Management Agency (FEMA)
             Immigration and Customs                  ICE
             Enforcement (ICE)
             Science and Technology                   S&T
             (S&T)
             United States Citizenship and            USCIS
             Immigration Services
             (USCIS)
             Federal Law Enforcement                  National Protection and
             Training Center (FLETC)                  Programs Directorate
                                                      (NPPD)
                                                      Transportation Security
                                                      Administration (TSA)
                                                      United States Visitor and
                                                      Immigrant Status Indicator
                                                      Technology (US-VISIT)




         Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                          Page 4
 

                 The following legacy data centers have moved completely to the
                 enterprise data centers:

                     •   CBP’s National Recovery Facility
                     •   Management Directorate’s (MGMT) Ashburn Data Center
                     •   MGMT’s HSDN Fair Lakes facility
                     •   MGMT’s Stafford Data Center
                     •   TSA’s St. Louis Hosting Center

                 DHS is also taking steps to resolve a number of previously identified
                 problems at these data centers. For example, electrical power deficiencies
                 at DC1 are being addressed with the installation of a new
                 21 megavolt-ampere power line and with a new power substation due to
                 be online in the second quarter of Fiscal Year (FY) 2011.

                 Further, the DHS OCIO has developed migration schedules, based on
                 fiscal year and component, to move additional systems to these data
                 centers. For example, the DHS OCIO created a FY 2010 data center
                 migration schedule and spending plan for moving specific systems from
                 components’ legacy data centers and also performing improvements at the
                 enterprise data centers. Appendix C summarizes the DHS FY 2010 Data
                 Center Migration Spending Plans. Appendix D contains DHS’ Multi-Year
                 Data Center Migration Plans.3

                 Current DHS efforts are focused on physically consolidating component
                 systems and hardware to DC1 and DC2 as funding is made available. For
                 example, DHS has budgeted $195,244,000 for improvements at the
                 enterprise data centers and for physically consolidating legacy data centers
                 in FY 2010. This funding is in addition to the $362,659,205 that DHS
                 obligated from FYs 2005 through 2009 for enterprise managed services
                 and data center development, infrastructure, and construction costs.

                 In addition to coordinating, as co-chair, DHS is also responding to the
                 OMB’s Federal Data Center Consolidation Initiative. Specifically, DHS
                 has already provided its Initial Asset Inventory and its Initial Data Center
                 Consolidation Plan. According to OMB, the Initial Asset Inventory
                 provides a high-level understanding of the scale and size of existing data
                 centers, IT infrastructure assets, and applications supported by the data
                 centers. The Initial Data Center Consolidation Plan identifies potential
                 areas for consolidation, areas that can be optimized through server

3
  Appendix D, Table D-1, contains the DHS Multi-Year Data Center Migration Plan from the DHS’
Congressional Data Center Migration Report, Quarter 1, Fiscal Year 2010 Report to Congress. However,
OCIO staff stated that this document was not provided to the Congress. Appendix D, Table D-2, contains
the updated Multi-Year Data Center Migration Plan that was provided to the Congress in May 2010.



              Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                Page 5
 

                 virtualization or cloud computing alternatives, and a high-level roadmap
                 for transitioning to the consolidated end-state architecture.

                 OMB has also requested the Final Asset Inventory Baseline, which is due
                 by July 30, 2010. According to OMB, this final asset inventory baseline
                 will contain more detailed information. For example, OMB expanded the
                 “total/used” storage fields by centralized storage types.

                 This final inventory will serve as the foundation for developing the Final
                 Data Center Consolidation Plans. DHS is to develop its Final Data Center
                 Consolidation Plans and incorporate them into its proposed FY 2012
                 budgets by August 30, 2010. The final plans are to include a technical
                 roadmap and approach for achieving the targets for infrastructure
                 utilization, energy efficiency, and cost efficiency.

        Steps Needed to Improve DHS’ Data Center Consolidation
        Process
                 Although DHS has made progress toward implementing its data center
                 consolidation initiative, DHS’ management of this initiative needs
                 improvement. Specifically, DHS has not developed a complete inventory
                 of its components’ data centers and the associated systems, hardware, and
                 software. Additionally, DHS should develop consolidated data center
                 floor plans to guide the consolidation process.

                 Further, DHS should update its enterprise-wide data center consolidation
                 strategic plan. Specifically, this plan should detail the process to
                 decommission legacy component data centers and should follow OMB’s
                 Federal Data Center Consolidation Initiative guidance.4 The department
                 could also benefit by incorporating into its plans lessons learned from
                 other successful data center consolidation efforts.

                         Data Center Inventory

                         Currently, DHS does not have a complete and accurate inventory
                         of its components’ data centers. Establishing a data center
                         inventory is an activity in DHS’ Data Center Migration Plan and in
                         OMB’s Federal Data Center Consolidation Initiative. DHS has
                         developed several data center inventories, each producing a
                         different number of department component data centers. For
                         example, DHS provided an inventory of 29 data centers in its
                         FY 2010 report to the Congress. However, DHS components
4
 OMB’s Federal Data Center Consolidation Initiative provides a framework that federal agencies should
follow to help “…reduce the overall cost of data center operations.”



               Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                Page 6

                          provided an inventory of 60 data centers to OMB in response to an
                          August 2009 data call.5 Another inventory of 61 data centers is
                          included in the OCIO’s Migration Consolidation Management
                          Plan.

                          Additionally, the same DHS data centers were counted differently
                          in separate inventories. For example, in the OCIO’s plan, the
                          U.S. Department of Justice facilities in Rockville, MD, and Dallas,
                          TX, are counted as two data centers. However, in the
                          congressional submission, they are counted as six separate
                          facilities: two data centers each for USCIS, ICE, and US-VISIT.
                          Additionally, in the OCIO’s plan, facilities in different cities are
                          counted as one data center. For example, data centers in both
                          Broomfield, CO, and Oak Ridge, TN, are listed as one facility. We
                          reviewed these different inventories and compiled a combined
                          inventory of 92 data centers.6 Table 2 provides information on the
                          different data center inventories.

                                     Table 2. DHS Data Center Inventories

                                                                                    Number of
                                          Source                                   Data Centers
                     Data Center Migration Plan provided to Congress                    23
                     in December 2008
                     FY 2010 Multi-Year Data Center Migration Plan                       29
                     provided to the Congress in May 2010
                     Component responses to August 2009                                  60
                     OMB data call
                     OCIO’s Data Center Consolidation Division                           61
                     Migration Consolidation Management Plan
                     Office of Inspector General (OIG) consolidation                     92
                     of OCIO inventories (see Appendix E, Tables E-2
                     and E-3)

                          Finally, not all of the components’ data centers appear in these
                          inventories. For example, some DHS offices, such as S&T, were
                          not included in any of the data center inventories.




5
  OMB Budget Data Request No. 09-41, Inventory of Federal Data Center Activity, August 10, 2009.
6
  The DHS Initial Data Center Consolidation Data System Location List, dated June 30, 2010, identified
102 computing infrastructure locations, which includes data centers, server rooms and closets. However,
this inventory does not contain the FEMA New Orleans or Baton Rouge facilities.



               Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                 Page 7
 

                         Hardware and Systems Inventory

                         DHS has not validated the complete inventory of IT resources
                         located at its components’ legacy data centers. Specifically, DHS
                         has not performed physical assessments at each component data
                         center to establish an inventory of the facility’s systems, hardware,
                         and software.

                         OMB’s guidance for its Federal Data Center Consolidation
                         Initiative identifies six phases, the first two of which are IT Asset
                         Inventory Baseline and Application Mapping. Within the first
                         phase, agencies should gather metrics across four primary areas in
                         order to derive a baseline state of their current data center
                         environment. In the second phase, agencies should perform
                         application mapping. This process will be the blueprint on which
                         subsequent decommissioning, virtualization, consolidation, or
                         migration analysis, plans, and actions will be based.

                         Unless facilities’ systems inventories are validated, OCIO
                         schedules for data center migration may be impacted. For
                         example, a TSA Federal Air Marshal Service (FAMS) facility in
                         Atlantic City, NJ, was included in the OCIO’s FY 2010 first
                         quarter report.7 See Appendix D, Table D-1. However, according
                         to internal DHS documents, only the non-Unix systems at this
                         facility were scheduled to migrate in FY 2010, with the remainder
                         scheduled to migrate in FY 2014. According to the May 2010
                         Data Center Migration Plan that was provided to the Congress, this
                         facility is not scheduled to begin migration until FY 2013. See
                         Appendix D, Table D-2. According to OCIO staff, this facility
                         was removed from the FY 2010 migration schedule owing to
                         (1) increased costs of purchasing as opposed to leasing and (2) the
                         request by FAMS to implement a separate FAMS local area
                         network at the enterprise data centers.




7
 According to OCIO staff, the Congressional Data Center Migration Report, Quarter 1, Fiscal Year 2010
Report to Congress, was not provided to the Congress.



              Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                Page 8
 

                          A complete and accurate data center inventory would help DHS to
                          ensure that:

                                   1) All hardware systems are properly accounted for,
                                   2)	 A comprehensive schedule is developed for migrating
                                       components’ systems to the department’s enterprise
                                       data centers, and
                                   3) Unplanned expenses for additional floor space are
                                       avoided.

                          Consolidated Data Center Floor Plans

                          Another deliverable in DHS’ Data Center Migration Plan is a
                          consolidated data center floor plan. Establishing consolidated data
                          center floor plans would enable DHS staff to determine if they can
                          physically consolidate all DHS data centers into DC1 and DC2.

                          We reported in April 2009 that the amount of usable computer
                          room space at DC1 is not sufficient to handle the projected
                          workload.8 Since the report was issued, DHS has not fully
                          addressed this concern. Specifically, the components’ responses to
                          OMB’s August 2009 data call identified 165,587 gross square feet
                          of floor space that would need to be consolidated into the
                          enterprise data centers (see appendix E, table E-2).9 However, the
                          two enterprise data centers combined contain only approximately
                          124,000 gross square feet of space. Without preparing the end-
                          state data center floor diagrams, DHS cannot determine if there is
                          enough space at DC1 and DC2 to house all components’ systems,
                          hardware, and software.

                          Additionally, according to OMB’s Agency Consolidation Plan
                          Template, the department should:

                                   Determine the optimal use of gross square footage area to
                                   leverage economies of scale and consider the available
                                   expansion potential for accommodating long-term growth
                                   in demand (data center lifespan could be well over 20–30
                                   years).



8
 DHS Progress in Disaster Recovery Planning for Information Systems (OIG-09-60), April 2009.
9
 While the components’ submission to OMB totaled 560,487 sq ft of floor space, the CIO’s Management
Response questioned the actual floor space at two FEMA facilities. We are using the latest information,
provided by FEMA staff, for those two sites in this report.



               Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                 Page 9

          DHS staff has stated that they could build an additional 100,000
          square feet of floor space at both enterprise data centers if needed.
          However, this amount would not be sufficient to meet the space
          needs at each enterprise data center.

          Enterprise-wide Data Center Consolidation Strategic Plan

          The DHS enterprise-wide data center consolidation strategic plan
          does not detail the process to decommission legacy component
          data centers and is not fully consistent with OMB’s Federal Data
          Center Consolidation Initiative guidance. DHS’ strategic plan for
          consolidating its data centers is the Data Center Migration Plan,
          effective November 2007. This plan projects that DHS will
          migrate hardware and systems from component data centers to
          DHS’ enterprise data centers by the end of FY 2011. While the
          Data Center Migration Plan recognizes the need to decommission
          legacy data centers, the plan does not include the activities or
          deliverables associated with this activity.

          Without including decommissioning activities in its enterprise-
          wide data center consolidation strategic plan, DHS may not reap
          the full benefits of data center consolidation. That is, the value of
          an enterprise data center service may not be fully realized until the
          cost of existing redundant infrastructure and services is minimized
          or eliminated following decommissioning.

          DHS’ enterprise-wide data center consolidation strategic plan
          should also be revised to be more consistent with OMB’s Federal
          Data Center Initiative process. For example, DHS’ Data Center
          Migration Plan contains the following workstream for the
          migration of component data centers and systems:




Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                 Page 10
 

          However, OMB’s Federal Data Center Initiative guidance expands
          on DHS’ Migration Planning workstream to include additional
          activities and deliverables. For example, OMB’s guidance
          contains the Application Mapping phase, as outlined below:




          Application mapping deliverables could be used to identify “quick
          wins” for the data center consolidation project. Quick wins
          include identifying business applications that have not been used in
          a year, or servers that have not been used in a month, and
          decommissioning them. Application mapping work products are
          also the blueprint on which subsequent virtualization,
          consolidation or migration to cloud computing analysis, plans, and
          actions will be based. DHS should consider updating its Data




Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                 Page 11
 

                         Center Migration Plan to include Application Mapping and other
                         key areas from OMB’s guidance.

                         Data Center Consolidation Best Practices

                         DHS may be able to improve its data center consolidation process
                         by adopting best practices from the experiences of other
                         government agencies. For example, the Department of
                         Energy (DOE) OIG reported significant opportunities for savings
                         in data center consolidation specifically in the areas of application
                         hosting and virtualization.10 Application hosting consists of a
                         central or host organization providing full IT services, including
                         housing, securing, operating, and maintaining the servers or other
                         devices for client organizations. Application hosting eliminates or
                         decreases the requirement for each organization to operate and
                         support its own servers. As a result, according to the DOE OIG,
                         overall costs are reduced.

                         The Environmental Protection Agency (EPA) used a contractor’s
                         analysis to help direct its efforts and resources as it began
                         consolidation planning in FY 2008. EPA’s contractor provided
                         recommendations on data center consolidation, server
                         consolidation, virtualization, and storage.

                         Additionally, while DHS is focusing on physically consolidating
                         its systems at the enterprise data centers, some data center
                         consolidation efforts focus on upgrading the systems before they
                         migrate to the enterprise data centers. For example, the state of
                         Texas used this approach.11 Texas’ goals for data center services
                         included effective management of in-place services, migration of
                         services to the consolidated data centers, and improvements to
                         services, security, and disaster recovery capability.




10
   U.S. Department of Energy Office of Inspector General, Audit Services, Management of the
 

Department’s Data Centers at Contractor Sites (DOE/IG-0803), October 2008. 

11
   Texas Department of Information Resources, Fiscal 2007 Data Center Services Report, August 31, 2007. 




               Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                Page 12
 

                           Texas organized these activities into three overlapping phases:

                               •	 Transition: The transfer of data center services to the
                                  service provider. Includes transition of staff, equipment,
                                  and all third-party contracts.
                               •	 Transformation: Implementation of industry-standard tools
                                  and processes. Includes upgrades and enhancements to
                                  agency processes, new system monitoring and management
                                  tools, and consistency across the enterprise.
                               •	 Consolidation: Movement of agency operations to the
                                  consolidated data centers. Includes equipment
                                  consolidation, new equipment and facility enhancements.

                           Texas’ data center consolidation project initially resulted in higher
                           costs. However, as of February 2009, Texas reported a
                           $9.7 million (3.65%) cost savings as a result of data center
                           consolidation.12

                  Recommendations
                           We recommend that the Chief Information Officer:

                           Recommendation #1: Perform the necessary discovery and
                           validation efforts to obtain accurate inventories of its data centers,
                           hardware, and systems.

                           Recommendation #2: Review government-wide efforts as well as
                           industry best practices for data center consolidations, and develop
                           an updated comprehensive data center consolidation plan.

                  Management Comments and OIG Analysis
                           We obtained written comments on a draft of this report from the
                           DHS CIO. The CIO generally agreed with our recommendations
                           and provided additional information on how they addressed them.
                           We evaluated the written comments received from the DHS CIO
                           and have made changes to the report where deemed appropriate. A
                           copy of the response is included as Appendix B.

                           Recommendation #1: The CIO concurs with this
                           recommendation with a caveat. In his response the CIO states that
12
  According to Year 2: Data Center Services Program, Contract-to-Date Cost Assessment Report (May
19, 2009), the $9.7 million savings were direct contract savings for the contract to date. However, several
milestones have not been completed and continued delays may negatively impact future savings.



               Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                  Page 13
 

          DHS will continue to follow its three phase approach for the
          discovery and validation of inventory. The CIO also states that
          “Data Center contents are dynamic and this three-phased approach
          provides a sufficient amount of detail minimizing inventory
          rework.”

          We agree that the steps DHS is taking, and plans to take, begin to
          satisfy this recommendation. However, we reviewed DHS’
          approach have concluded that the current OCIO process may
          significantly underestimate the inventory which is to be
          consolidated at the two enterprise data centers. This
          recommendation will remain open until DHS provides
          documentation to support that all planned corrective actions are
          completed

          Recommendation #2: The DHS CIO concurs with this
          recommendation. In his response the CIO stated that OCIO is
          currently updating its data center consolidation plan to include
          industry best practices and lessons learned.

          We agree that the steps DHS is taking, and plans to take, begin to
          satisfy this recommendation. This recommendation will remain
          open until DHS provides documentation to support that all planned
          corrective actions are completed.

          In addition to responses to our recommendations, the DHS CIO
          identified the following four areas of concerns.

          Issue #1: The CIO expressed concern about our statement that
          DHS does not have a complete inventory of component data
          centers. In his response, the CIO stated that various data calls have
          contributed to an inventory for current migration planning efforts.
          The CIO also stated that “Data center contents are dynamic, and
          this three-phased approach provides a sufficient amount of detail
          minimizing inventory rework.” However, it is our opinion that this
          current process has not provided DHS with a complete inventory
          of its data centers. For example, the OCIO acknowledges that their
          latest inventory does not include two FEMA facilities that were
          included in the 2009 submission to OMB.

          Issue #2: In our report we state that DHS needs to develop and/or
          update its DHS-wide Data Center Migration Plan to include
          application mapping and other key areas from OMB’s guidance.
          The CIO stated that DHS is currently updating its migration plans



Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                 Page 14
 

          to include application information in its recent data inventory
          collection for planning purposes. We agree with this action.

          Issue #3: In our report we state that DHS should adopt best
          practices from other government agencies. The CIO stated that
          DHS remains open to all best practices that address the primary
          concerns of DHS’ consolidation effort (e.g., increased security,
          information sharing, disaster recovery enhancement, reduced
          footprint, long-term cost benefits, etc.). The CIO states that DHS
          is undertaking actions that correspond to our conclusion. We agree
          with this action.

          Issue #4: In our report we state that there is an insufficient floor
          space available in DC1 and DC2 to consolidate all existing/known
          component data centers. The CIO questioned our reliance on
          DHS’ responses to a 2009 OMB data call. Specifically, the CIO
          stated that the OCIO did not administer the data call, that the
          components responded directly to the OMB, and that the OCIO did
          not have the opportunity to validate the components’ responses to
          this data call.

          While the OCIO did not administer this data call, DHS’ Office of
          the Chief Financial Officer (CFO) did administer this data call.
          The components did not respond directly to OMB, but provided
          their responses to the OCFO. Additionally, the OCIO provided
          information for this data call concerning DC1 and DC2.

          The CIO also cited two FEMA facilities to show that the August
          2009 data call was not accurate. In addition to questioning their
          floor space, the CIO stated that these facilities do not contain
          ‘…data application hosting space.” Following receipt of the CIO’s
          comments, we contacted FEMA staff at these facilities and we are
          using updated floor space information for these two facilities in
          this report. Additionally, FEMA staff report that these sites
          contain a total of 24 servers with 47 terabytes of associated
          storage.

          Further, the CIO stated that 160,000 sq ft of space is within the
          consolidation capabilities of DC1 and DC2. However, the CIO did
          not provide estimates on the amount of floor space that would be
          required to migrate the resources of the 32 facilities listed in Table
          E-3 or the amount of floor space that is already in use. For
          example, in April 2009 we reported that 12,554 sq ft of space was
          already in use at DC1.



Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                 Page 15

          Additionally, DC1 and DC2 are to provide active-active processing
          capabilities for each other. If one data center fails, the other data
          center is to be designed to provide backup processing. While DHS
          should be allocating floor space for this capability, each data center
          may not need to be a complete mirror of the other. For example,
          test or development systems may not need complete redundancy.
          However, a percentage of floor space at each data center should be
          reserved for backing up the other facility. If DHS decides that
          25% of the floor space at each center is needed for redundant
          processing, this would further reduce the floor space available for
          consolidation at the two enterprise data centers by approximately
          30,000 sq ft.

          Finally, the DHS OCIO has recommended using rack counts
          instead of floor space for estimates. However, rack count
          estimates raise questions about the ability of DC1 and DC2 to
          adequately consolidate all identified facilities. For example, in
          response to OMB’s Federal Data Center Consolidation Initiative,
          the OCIO provided an Initial Asset Inventory that identified 3,000
          racks as possible candidates for consolidation. However, in DHS’
          first quarter FY 2010 report, the OCIO reported that there were
          only 519 and 980 racks available at DC1 and DC2 respectively.




Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                 Page 16
 

Appendix A
Purpose, Scope, and Methodology

                     This audit is a follow-up audit to our reports DHS’ Progress on
                     Disaster Recovery Planning for Information Systems (OIG-09-60)
                     and Review of Management Agreements Developed for DHS’
                     Primary Data Center (OIG-10-56). These reports concerned DHS
                     Management Directorate’s efforts to establish two enterprise data
                     centers. This report focuses on DHS’ efforts to consolidate its
                     legacy data centers into these new data centers.

                     The objective of our audit was to determine the progress DHS is
                     making in consolidating its component data centers. We reviewed
                     relevant legislation, DHS policies and procedures, planning
                     documentation, budget submissions, data center inventories, floor
                     plans, and prior audit reports. We also interviewed key personnel.

                     We conducted this performance audit between March and July
                     2010 pursuant to the Inspector General Act of 1978, as amended,
                     and according to generally accepted government auditing
                     standards. Those standards require that we plan and perform the
                     audit to obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions based upon our
                     audit objectives. We believe that the evidence obtained provides a
                     reasonable basis for our findings and conclusions based upon our
                     audit objectives.

                     We provided DHS staff with briefings and presentations
                     concerning the results of fieldwork and the information
                     summarized in this report.

                     We appreciate the efforts of DHS management and staff to provide
                     the information and access necessary to accomplish this audit. The
                     principal OIG points of contact for the audit are Frank Deffer,
                     Assistant Inspector General for Information Technology Audits,
                     (202) 254-4100, and Sharon Huiswoud, Director, Information
                     Systems Division, (202) 254 5451. Appendix F identifies major
                     OIG contributors to the audit.




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                            Page 17
 

Appendix B
Management Comments to the Draft Report

                                                                                Office ofthe ChiefInformation Officer
                                                                                1I.. Department ofllomcland Security
                                                                                Washington. DC 20528




                                                                                Homeland
                                                                                Security
                                     SEP 09 2010

         MEMORANDUM FOR:


         FROM:
                                       Richard L. Skinner
                                       Inspector General

                                      Richard A. Spires
                                                            ¥! --
                                      Chief Information 0 flcer

         SUBJECT:                     Comment to OIG Draft Report 10-053-ITA-MGMT: "Management of
                                      DHS' Data Center Consolidation Initiative Needs Improvement"'


        The Department of Homeland Security (DHS) Office of the Chief Information Officer (OCIO) has
        reviewed the Office of the Inspector General Draft Report #10-053-ITA-MGMT. "Management of
        DHS' Data Center Consolidation Initiative Needs Improvement," dated August 20 I O.

        oelo found 4 overarching areas of concern, as outlined below (please see Addendum           for detailed
        comments):

         Issue #1: DHS does not have a complete inventory of Component data centers.

        OCIO Comment: Various data calls have contributed to an inventory for current migration
        planning efforts. Additionally, detailed project-level inventories are undertaken as part of the
        migration discovery activity. Planning of migration activities is conducted in three phases. High
        level system inventories are used to fonn budget estimates for migration, which are validated with
        the Components that operate legacy centers. Then. Components provide more detailed inventory
        data in task statements for migration contractors. That data is again validated by migration
        contractors via discovery efforts. Data center contents are dynamic, and this thrce-phased approach
        provides a sufficient amount of detail minimizing inventory rework.

         Issue #2: DHS needs to develop and/or update its Enterprise-wide Data Center Migration Plan
         to include Application Mapping and other key areas from OMB's guidance.

        OCIO Comment: As part of the Federal Data Center Consolidation Initiative, DHS is currently
        updating its migration plans to include application information in its recent data inventory collection
        for planning purposes.




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                   Page 18
 

Appendix B
Management Comments to the Draft Report




        Issue #3: DHS should adopt best practices from other government agencies.

        OCIO Comment: As part of the Federal Data Center Consolidation Initiative, DHS has provided its
        lessons learned to other government agencies. DHS remains open to all best practices that address
        the primary concerns of DHS consolidation effort (e.g., increased security, information sharing,
        disaster recovery enhancement. reduced footprint, long-teon cost benefits, etc.). OeJO will research
        best practices from other government agencies and pursue incorporating methods where applicable.

        Issue #4: There is insufficient floor space available in DCI and De2 to consolidate all
        existing/known Component data centers.

        OCID Comment: DIG refers to the OMS August 2009 data call throughout the report. OCIO
        believes reliance on information from this data call, particularly for the purpose of calculating floor
        space required in a consolidation elTort, is problematic for the following reasons:
            • OCIO did not administer the data call; Components were solicited and responded to OMS
               directly. and OCI0 did not have the opportunity to validate Component responses.
            • The OMS data call responses do not accurately represent data center space. For example.
                FEMA's response listed two facilities that account for about 400.000 square feel. Neither
                facility had been included in DHS data call responses and do not contain data application
                hosting space. This 400,000 square feet accounts for about 71% of the total reported space in
                'he OMB data call.
            • Omitting the erroneous 400,000 square feet, the OMS data call found about 160.000 square
                feet of space, which is well within the expected consolidation capabilities of DCI and DC2.
                    o Note: OCIO originally estimated 220.000 square feet of legacy data center space for
                         initial data center consolidation planning purposes.

        In addition, OCIO's responses to the recommendations outlined in the DIG report are below:

        Recommendation #1: Perform the necessary discovery and validation efforts to obtain accurate
        inventories of its data centers. hardware. and systems.

        OCIO Response: OCIO concurs with caveat. OCIO will continue to use a three-phased approach
        for the planning of migration activities. High level system inventories are used to form budget
        estimates for migration. These estimates are validated with Components that operate legacy centers.
        Then. Components provide more detailed inventory data in task statements for migration contractors.
        That data is validated by migrations contractors via discovery efforts. Data Center contents are
        dynamic and this three-phased approach provides a sufficient amount of detail minimizing inventory
        rework.

        Recommendation #2: Review government-wide efforts as well as industry best practices for data
        center consolidations and then develop an updated comprehensive data center consolidation plan.

        OCIO Response: OCIO concurs. OCIO is currently updating its data center consolidation plan as
        part of the Federal Data Center Consolidation Initiative. Upgrades to the plan will include industry
        best practices and lessons learned as possible.



                                                           2




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                   Page 19
 

Appendix C
DHS FY 10 Data Center Migration Spending Plans

                 Table C-1. Summary of DHS’ FY 2010 Data Center Migration,
                             Project/Spend Plan by Component (November 2009)

            Component          Legacy Data Center           Estimated Total  Totals
                                                            Cost
            CBP                Newington, VA                     $33,650,000
            CBP Total                                                         $33,650,000
            ICE                Dallas, TX                         $6,000,000
            ICE                Rockville, MD                     $13,000,000
            ICE                Other                              $4,850,000
            ICE Total                                                         $23,850,000
            FEMA               Plano, TX                          $1,658,145
            FEMA               Sterling, VA                       $1,000,000
            FEMA               Denton, TX                           $500,000
            FEMA               Mt. Weather, VA                    $1,381,004
            FEMA               Other                              $1,360,851
            FEMA Total                                                          $5,900,000
            TSA/FAMS           Atlantic City, NJ                  $8,800,000
            TSA FAMS                                                            $8,800,000
            Total
            NPPD               Pensacola, Fl                        $2,500,000
            NPPD               Other                                $5,500,000
            NPPD Total                                                                    $8,000,000
            USCIS              Dallas, TX                           $5,500,000
            USCIS              Rockville, MD                        $5,500,000
            USCIS Total                                                                  $11,000,000
            DC1                DC1 Power upgrade                  $38,589,150
            DC2                DC2 Development                    $20,210,850
            DHS HQ                                                                       $58,800,000
            Total
            Sub-Total Not                                                           $150,000,000
            Including
            US-VISIT
            US-VISIT           Dallas, TX                         $15,081,333
            US-VISIT           Rockville, MD                      $15,081,333
            US-VISIT           DC2                                $15,081,333
            US-VISIT                                                                     $45,244,000
            Total
            FY 2010                                                                 $195,244,000
            Total




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                            Page 20
 

Appendix C
DHS FY 10 Data Center Migration Plan

               Table C-2. DHS’ FY 2010 Data Center Migration, Project/Spend
                                    Plan by Component (June 2010)

                       Component                        Estimated Total Cost
                       CBP                                         $9,700,000
                       ICE                                        $23,850,000
                       FEMA                                       $12,250,000
                       TSA                                         $8,800,000
                       NPPD                                        $8,000,000
                       USCIS                                      $22,000,000
                       DHS HQ                                     $65,400,000
                       Sub-Total not including US-VISIT          $150,000,000
                       US-VISIT                                   $45,244,000
                       Total                                     $195,244,000
                    .
 





          Management of DHS’ Data Center Consolidation Initiative Needs Improvement

                                          Page 21
Appendix D
Multi-Year Data Center Migration Plan

          Table D-1. 1st Quarter FY 2010 Multi-Year Data Center Migration Plan
                                      (Prepared)13
                                                                              FY2009      FY2010      FY2011      FY2012      FY2013
      DHS DATA CENTER MIGRATION SCHEDULE                     DC1/DC2
                                                                           Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4
Customs and Border Protection (CBP)
  National Data Center (Springfield/Newington, VA)           DC1/DC2
  Disaster Recovery Facility (Undisclosed)                     DC1        Completed FY08
  ACE (Tyson's Corner, VA)                                   DC1/DC2
DHS Headquarters (DHS HQ)
  DHS/CIO (Bluemont, VA)                                     DC1/DC2
  DHS Ashburn Data Center (Ashburn, VA)                        DC1        Completed FY08
  DHS HSDN Fair Lakes (Fairfax, VA)                          DC1/DC2                       Completed Q4 FY09
  DHS Stafford Data Center (Garrisonville, VA)                 DC1        Completed FY08
Immigration and Customs Enforcement (ICE - DOJ)
  ICE - DOJ (Rockville, MD)                                   DC2
  ICE - DOJ (Dallas, TX)                                      DC1
USCIS
  USCIS - DOJ (Rockville, MD)                                  DC2
  USCIS - DOJ (Dallas, TX)                                     DC1
  USCIS TECC Verizon (Manassas, VA)                          DC1/DC2
US-VISIT (DOJ)
  US-VISIT - DOJ (Rockville, MD)                              DC2
  US-VISIT - (DOJ Dallas, TX)                                 DC1
Federal Emergency Management Agency (FEMA)
  Information Technology Services Center (Bluemont, VA)        DC2
  N. Va. Commercial Data Center - Savvis (Sterling, VA)        DC2
  FEMA IT-EO-DO-TX (Denton, TX)                              DC1/DC2
  FEMA COOP (Plano, TX)                                        DC2
Transportation Security Administration (TSA)
  IBM St. Louis Hosting Center (Hazelwood, MO)                DC2                       Completed Q3 FY09
 TSA Headquarters (Arlington, VA)                             DC2
 Annapolis Junction Data Center (Annapolis, MD)               DC2      TBD
 Colorado Springs Data Center (Colorado Springs, CO)          DC2      TBD
 Atlantic City Data Center (Atlantic City, NJ)                DC2
U.S. Coast Guard (USCG)
 Aircraft Repair and Supply Center (Elizabeth City, NC)       DC1      TBD
 OSC (Kearneysville, WV)                                      DC1      Waiver request
 Coast Guard Finance Center (Chesapeake, VA)                  DC1      TBD
 OSC Disaster Recovery                                        DC2      TBD
U.S. Secret Service (USSS)
 U.S. Secret Service (H Street, Washington D.C.)              DC1
 U.S. Secret Service- DR/Back Up Data Center (Undisclosed)    DC2

                                                                       Completed
                                                                       Target Completion




13
  According to OCIO staff, the Congressional Data Center Migration Report, Quarter 1, Fiscal Year 2010
Report to Congress, was not provided to the Congress.



                      Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                                    Page 22
 

Appendix D
Multi-Year Data Center Migration Plan

Table D-2. 	                 FY 2010 Multi-Year Data Center Migration Plan Provided to the Senate
                             Appropriations Committee in May 2010
                                                                           FY2009      FY2010      FY2011      FY2012      FY2013      FY2014
 DHS DATA CENTER MIGRATION SCHEDULE                        DC1/DC2
                                                                        Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4
Customs and Border Protection (CBP)
 National Data Center (Springfield/Newington, VA)          DC1/DC2
  Disaster Recovery Facility (Undisclosed)                  DC1         Completed FY08
  ACE (Tysons Corner, VA)                                  DC1/DC2
DHS Headquarters (DHS HQ)
  DHS/CIO (Bluemont, VA)                                   DC1/DC2
  DHS Ashburn Data Center (Ashburn, VA)                     DC1         Completed FY08
  DHS HSDN Fair Lakes (Fairfax, VA)                        DC1/DC2                    Completed Q4 FY09
  DHS Stafford Data Center (Garrisonville, VA)              DC1         Completed FY08
U.S. Immigration and Customs Enforcement (ICE)
  ICE - DOJ (Rockville, MD)                                 DC2
  ICE - DOJ (Dallas, TX)                                    DC1
U.S. Citizenship and Immigration Services (USCIS)
  USCIS - DOJ (Rockville, MD)                               DC2
  USCIS - DOJ (Dallas, TX)                                  DC1
  USCIS TECC Verizon (Manassas, VA)                        DC1/DC2
U.S. Visitor and Immigrant Status Indicator Technology (US-VISIT)
  US-VISIT - DOJ (Rockville, MD)                            DC2
  US-VISIT - DOJ (Dallas, TX)                               DC1
Federal Emergency Management Agency (FEMA)
  Information Technology Services Center (Bluemont, VA)     DC2
  N. Va. Commercial Data Center - Savvis (Sterling, VA)     DC2
  FEMA IT-EO-DO-TX (Denton, TX)                            DC1/DC2
  FEMA COOP (Plano, TX)                                     DC2
Transportation Security Administration (TSA)
  IBM St. Louis Hosting Center (Hazelwood, MO)              DC2                       Completed Q3 FY09
  TSA Headquarters (Arlington, VA)                          DC2
  Annapolis Junction Data Center (Annapolis, MD)            DC2
  Colorado Springs Data Center (Colorado Springs, CO)       DC2
  Atlantic City Data Center (Atlantic City, NJ)             DC2
U.S. Coast Guard (USCG)**
  Aircraft Repair and Supply Center (Elizabeth City, NC)    DC1
  OSC (Kearneysville, WV)                                   DC1      Waiver request
  Coast Guard Finance Center (Chesapeake, VA)               DC1
  OSC Disaster Recovery                                     DC2      TBD
U.S. Secret Service (USSS)
  U.S. Secret Service (H Street, Washington, D.C.)          DC1
  U.S. Secret Service- DR/BackUp Center (Undisclosed)       DC2
                           Completed
                           Target Completion       




                        Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                                           Page 23
 

Appendix E
DHS Data Center Facilities

                              Table E-1. Enterprise Data Centers

                   Component          Data Center          State                        Gross Square
                                          City                                              Feet
DC1       MGMT                      Stennis Space           MS                                 63,000
                                    Center
DC2       MGMT                      Clarksville             VA                                     60,550
Total Gross Square Feet at Enterprise Data Centers: 123,550

 Table E-2. List of Data Centers Submitted by Components in Response to OMB’s
                             August 2009 Data Call14

            Component                       Data Center City               State         Gross Square
                                                                                             Feet
      1     CBP                             Springfield                   VA                       54,000
      2     FEMA                            Anniston                       AL                       2,691
      3     FEMA                            Lakewood                       CO                       1,850
      4     FEMA                            Baton Rouge                    LA                        300*
      5     FEMA                            Harahan                        LA                       9,250
      6     FEMA                            New Orleans                    LA                        360*
      7     FEMA                            Cumberland                    MD                          100
      8     FEMA                            Frederick                     MD                          400
      9     FEMA                            Hyattsville                   MD                        1,100
     10     FEMA                            Ft. Monmouth                   NJ                          96
     11     FEMA                            Albany                        NY                           96
     12     FEMA                            New York                      NY                          440
     13     FEMA                            Hatorey                    Puerto Rico                     25
     14     FEMA                            Denton (1)                     TX                         894
     15     FEMA                            Denton (2)                     TX                         624
     16     FEMA                            Ft. Worth                      TX                          70
     17     FEMA                            Berryville (1)                VA                          620
     18     FEMA                            Berryville (2)                VA                        3,100
     19     FEMA                            Berryville (3)                VA                          620
     20     FEMA                            Berryville (4)                VA                          425
     21     FEMA                            Winchester (1)                VA                        2,000
     22     FEMA                            Winchester (2)                VA                          500
     23     ICE                             Denver                         CO                       3,000
     24     ICE                             Washington, DC (1)             DC                         100
     25     ICE                             Washington, DC (2)             DC                       1,500
     26     ICE                             Suitland                      MD                        3,000
     27     ICE                             Battle Creek                   MI                       3,000
     28     ICE                             Philadelphia                   PA                       3,000

14
  According to OCIO staff, the OCIO did not administer this data call nor did they validate the information
provided by the components.



               Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                                 Page 24
 

Appendix E
DHS Data Center Facilities

  29     ICE                           Houston                       TX                   Unknown
  30     ICE                           Springfield                   VA                   Unknown
  31     NPPD                          Los Angeles                   CA                         86
  32     NPPD                          Pensacola (1)                 FL                      3,000
  33     NPPD                          Pensacola (2)                 FL                      3,000
  34     NPPD                          Argonne                       IL                      2,500
  35     NPPD                          Oak Ridge                     TN                      2,138
  36     NPPD                          Undisclosed              Undisclosed                  1,200
  37     NPPD                          Arlington (1)                 VA                      2,400
  38     NPPD                          Arlington (2)                 VA                        275
  39     NPPD                          Chantilly                     VA                        100
  40     NPPD                          Fairfax                       VA                        480
  41     NPPD                          Sterling                      VA                        100
  42     NPPD                          Winchester                    VA                        600
  43     NPPD – US-VISIT               Rockville                     MD                   Unknown
  44     NPPD – US-VISIT               Dallas                        TX                   Unknown
  45     TSA                           Colorado Springs              CO                      5,102
  46     TSA                           Annapolis Junction           MD                       6,500
  47     TSA                           Atlantic City                 NJ                      1,852
                                       International Airport
  48     TSA                           Arlington (1)                  VA                     3,000
  49     TSA                           Ashburn (1)                    VA                       900
  50     United States Coast           Elizabeth City                 NC                     2,356
         Guard (USCG)
  51     USCG                          Chesapeake                     VA                     2,607
  52     USCG                          **Kearneysville                WV                    10,000
  53     USCIS                         Laguna Niguel                  CA                     1,200
  54     USCIS                         Lee’s Summit                   MO                     1,400
  55     USCIS                         Lincoln                        NE                     1,200
  56     USCIS                         Dallas                         TX                     1,200
  57     USCIS                         Manassas VA                    VA                     2,500
  58     USCIS                         St. Albans                     VT                     1,000
  59     United States Secret          Washington, DC                 DC                    12,255
         Service (USSS)
  60     USSS                          Olney                          MD                     3,475
             Total Gross Square Feet per OMB Submissions:                    165,587
*Based upon DHS’ Management Comments, we contacted FEMA staff for the correct 

size of the Baton Rouge and New Orleans server rooms. 

**The USCG facility in Kearneysville, WV, is exempt from migration according to 

Homeland Security’s FY 2010 Appropriation (P.L. 111-83). 





            Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                             Page 25
 

Appendix E
DHS Data Center Facilities

 Table E-3. DHS Data Centers Included in OCIO Inventories as of April 2010 But 

  Not Included in the Components’ Responses to the OMB August 2009 Data Call 


                      Component                  Data Center City                  State
           1          CBP                        Tysons Corner                      VA
           2          DHS MGMT                   Bluemont                           VA
           3          FEMA                       Denton (3)                         TX
           4          FEMA                       Plano                              TX
           5          FEMA                       Sterling                           VA
           6          FEMA                       Unknown                            VA
           7          FEMA                       Rocket Center                      WV
           8          FLETC                      Glynco                             GA
           9          FLETC                      Clinton                            MD
           10         FLETC                      Artesia                            NM
           11         ICE                        Broomfield                         CO
           12         ICE                        Washington DC (3)                  DC
           13         ICE                        Rockville                          MD
           14         ICE                        Altoona                            PA
           15         ICE                        Oakridge                           TN
           16         ICE                        Dallas                             TX
           17         ICE                        Fairfax                            VA
           18         NPPD/Federal               Unknown                          Unknown
                      Protective Service
                      and other small sites
           19         NPPD                       College Station                   TX
           20         TSA                        Little Rock                       AR
           21         TSA                        Denver                            CO
           22         TSA                        Atlantic City                      NJ
           23         TSA                        Pittsburg                         PA
           24         TSA                        Arlington (2)                     VA
           25         TSA                        Ashburn (2)                       VA
           26         TSA                        Bluemont                          VA
           27         TSA                        Herndon                           VA
           28         TSA                        Richland                          WA
           29         USCG                       Undisclosed                    Undisclosed
           30         USCIS                      Rockville                         MD
           31         USCIS                      Dallas                            TX
           32         USCIS                      Essex                             VT




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                            Page 26
 

Appendix F
Major Contributors to This Report


                     Sharon Huiswoud, Director, Department of Homeland Security,
                     Information Technology Audits

                     Kevin Burke, Audit Manager, Department of Homeland Security,
                     Information Technology Audits

                     Matthew Worner, Senior Auditor, Department of Homeland
                     Security, Information Technology Audits

                     Domingo Alvarez, Senior Auditor, Department of Homeland
                     Security, Information Technology Audits

                     Consha Griffin, Management and Program Assistant, Department
                     of Homeland Security, Information Technology Audits

                     Charles Twitty, Referencer, Department of Homeland Security,
                     Information Technology Audits




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                            Page 27
 

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      Under Secretary for Management
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer, DHS
                      Deputy Chief Information Officer, DHS
                      Chief Information Security Officer, DHS
                      Management Directorate, Audit Liaison
                      DHS Chief Information Officer, Audit Liaison
                      DHS Chief Information Security Officer, Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Management of DHS’ Data Center Consolidation Initiative Needs Improvement 


                                            Page 28
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
